V

No.

3fn ttje Supreme Court of tfje fHntteb States;
WENDY ALISON NORA,
Petitioner,
v.
MINNESOTA OFFICE OF LAWYERS
PROFESSIONAL RESPONSIBILITY
Respondent.

CERTIFICATE OF COMPLIANCE WITH
RULE 33.1(g) WORD COUNT LIMITATIONS

As required by Supreme Court Rule 33.1(h), I
certify that the document contains 3,568 words,
excluding the parts of the document allowed to be
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury of the laws
of the United States of America, pursuant to 28
U.S.C. sec. 1746, that the foregoing is true and
correct.
Dated this 22nd day of November, 2019.
AN IMAGE OF THE SIGNATURE BELOW SHALL
HAVE THE SAME FORCE AND EFFECT AS THE
ORIGINAL

Wendy Alison Nora, Petitioner, in propria persona
ACCESS LEGAL SERVICES, LLC

